No. 19-863
IN THE

Supreme Court of the United States
_________
AGUSTO NIZ-CHAVEZ
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.
CERTIFICATE OF SERVICE
I, Zachary C. Schauf, hereby certify that I am a member of the Bar of this Court,
and that I have this 13th day of August 2020, caused three copies of the Brief for The
National Immigrant Justice Center as Amicus Curiae In Support of Petitioner to be
served via overnight mail and an electronic version of the document to be transmitted
via the Court’s electronic filing system to:
David Jacob Zimmer
Goodwin Procter LLP
100 Northern Ave.
Boston, MA 02210
(617) 570-1000
dzimmer@goodwinlaw.com

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Agusto Niz-Chavez
Counsel for Barr, Attorney General

/s/

Zachary C. Schauf
Zachary C. Schauf

